Foreign Currency Transactions
If you effect a transaction at a merchant that settles in a currency other
than U.S. dollars, Mastercard International will convert the charge into
a U.S. dollar amount. The conversion rate in U.S. dollars will be either
at the government-mandated rate or a wholesale currency market rate
determined by Mastercard for the processing date on which the transaction
is processed. The currency conversion rate used by Mastercard on the
processing date may differ from the rate that would have been used on the
purchase date or the cardholder statement posting date.
Foreign Transaction Fee
(not applicable to Rewards Mastercard credit card)
A fee of 2% of the transaction amount in US Dollars will be assessed
on cross-border and international transactions. International transactions
include Internet transactions made when you are in the United States, but
the merchant processes the transaction in a foreign country. Transactions
acquired in U.S. territories, and transactions originating on U.S. military
bases, at U.S. embassies and at U.S. consulates, are excluded from this
fee.
Convenience Checks
You may access your credit line by writing checks provided by us for that
purpose. The checks will be honored and paid up to your credit limit as
long as the account is not in default. You may request a stop payment
on a convenience check by phone or in writing. We must receive the
request in time to afford us reasonable opportunity to act upon it under
the Credit Union’s rules. Oral or telephone requests to stop payment must
be confirmed by you in writing to us within 14 calendar days after your
original request, and if not so confirmed, such request will be considered
to have lapsed after the 14 day period. We can only honor a stop payment
request for 12 months from the date of request. You agree not to hold
us responsible for any claims or liabilities of payees or endorsers on
convenience checks for which you have requested payment stopped.
You agree not to hold us responsible for the misrouting or delay of a
convenience check due to markings placed on the check by you or a prior
endorser that obscure any depository endorsement placed by us or our
agent. We may recognize the signature of any borrower or authorized user
on this account as authorized to transact any business on the account.
Convenience checks cannot be used to pay any amount you owe under
this Agreement or under any other credit agreement or account you have
with us now or in the future. Convenience checks are considered cash
advances and accrue interest according to the method described for cash
advances under the “CALCULATION OF FINANCE CHARGES” heading of
this disclosure. Transactions made using convenience checks do not earn
Rewards points.
Default/Collection/Attorney’s Fees
You will be in default and understand that all loan credit under this
Agreement may be terminated if (1) you do not make periodic payments
as required by this Agreement, (2) you do not keep any promise made in
this Agreement or any other agreement with this Credit Union, (3) any
information that you give us to obtain a loan advance is false, (4) any third
party attempts by legal process to take any property belonging to you, (5)
you die, become insolvent or are a party to any bankruptcy proceeding,
or (6) as otherwise provided in this Agreement. If you are in default, we
may refuse to make any further advances or refuse charge privileges to
you and declare all sums owed under this Agreement immediately due and
payable. We may accept late payments or partial payments without losing
any of our rights under this Agreement. You understand that if you are
in default, we may add to your unpaid balance any reasonable attorney’s
fees and court costs, all of which you agree to pay.
Waivers and Severability
We may waive or decline to enforce any of our rights under this
Agreement without affecting any of our other rights. Should any provision
of this Agreement be determined to be invalid or unenforceable, that

determination shall not affect the validity or enforceability of any other
provision.
Governing Law
This Agreement, your credit card line of credit, as well as our rights and
duties and your rights and duties regarding them, will be governed by and
interpreted in accordance with federal law to the fullest extent possible
and, to the extent federal law does not apply, in accordance with California
law, regardless of where you live and use your credit card. This Agreement
is made in California. All credit will be extended from California, and all
repayment must be made in California.
Third Party/Mobile Devices
We may also permit you or any authorized user to load information about
your account onto third party/mobile devices (such as a smartphone,
tablet, or any other handheld or wearable communication device that
allows you to store or electronically present your account information)
that would enable you to make purchases or engage in credit
transactions for your account without needing to show your credit card.
You and we agree that any such use of your account will be subject to all
the terms and conditions contained in this agreement.
To the extent you do use a third party/mobile device to make a credit
transaction on your account, or load information about your account onto
any such device, you need to be aware that we do not control the device
and cannot guarantee the performance of either the device or any third
party.
Additionally:
• You agree to carefully protect the security of any devices
the same as you would your cash, checks, credit cards and
other valuable information. We encourage you to password
protect or lock your device to help prevent an unauthorized
person from using it. You agree to promptly report any loss
or theft to both us and the third party.
• You may incur third party fees related to engaging in a
transaction (such as mobile carrier data or messaging
charges).
• Credit transactions made through a third party/mobile
device may involve the electronic transmission of
information related to you or your account across wireless
or computer networks. Third parties, such as merchants,
card association networks, mobile carriers, mobile wallet
operators, and software application providers may use and
receive information in connection with a credit transaction.
Third parties may also receive information about your
mobile device when you use it to make a credit transaction.
• We may, at any time, partially or fully restrict your ability
to make credit transactions through a third party/mobile
device. You agree to notify us promptly if you remove or
want to remove your account information from any third
party/mobile device.
YOUR BILLING RIGHTS:
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement. If you think
there is an error on your statement, write to us at: SchoolsFirst FCU
P.O. BOX 11547, Santa Ana, CA 92711. You may also contact us on our
website at schoolsfirstFCU.org.
In your letter, give us the following information:
• Account Information: Your name and account number
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing (or electronically). You
may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of the balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to the
amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount in question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note
neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing (or electronically) at the address or website

listed under What To Do If You Find a Mistake on Your Statement”.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay
we may report you as delinquent.

MASTERCARD®
AGREEMENT AND
DISCLOSURE
STATEMENT
April 30, 2021

M-133239

You agree to the following terms and conditions and any amendments
thereto.
Accepting This Agreement
Before you sign or use the SchoolsFirst Federal Credit Union Mastercard®
credit card issued to you, please read this Agreement thoroughly, because
by using the credit card you will be agreeing with us to the terms and
conditions stated in this Agreement. If you do not wish to be bound by this
Agreement, do not use the credit card and contact us to let us know that
you wish to cancel your credit card account with us. If you have received
a card or checks to access the card account, destroy them.
Definitions
In this Agreement the words “you”, “your”, and “yours” mean each and
all of the person(s) who apply for and/or use the card, the words “credit
card” mean the SchoolsFirst Federal Credit Union Mastercard credit card,
and the words, “we”, “our”, “us”, and “Credit Union” mean the SchoolsFirst
Federal Credit Union.
Liability of All Cardholders and Authorized Users
You understand that you are liable for the payment of all sums due under
this Agreement. If there is more than one borrower or authorized user
on this account, each person, individually, and all persons jointly are
obligated to repay all sums due under this Agreement. You agree that
all statements made in your application for your credit card were for the
purpose of obtaining credit and are true, correct, and complete to the best
of your knowledge and belief.
Credit Limit
This Agreement establishes a credit card account for you with an open
end line of credit. We will establish a credit limit for you, and may increase
or decrease that credit limit from time to time. We have provided you
with a separate written disclosure stating the credit limit for purchases
and cash advances on your account, and that disclosure is made a part
of this Agreement by this reference. Your monthly statements will show
the amount of credit available to you for purchases and cash advances
as of the statement date. We will give you written notice of any change
in your credit limit. If your credit limit is decreased for any reason, any
subsequent request for a credit limit increase will be subject to credit
application and approval. You agree not to use your account in any way
which would make the unpaid balance of your account or cash advances on
your account exceed your credit limit. You also agree to pay us the amount
of any transactions on your account in excess of your credit limit along
with your regular minimum payment at your next scheduled payment due
date. Purchases and advances are subject to daily limits that may restrict
the full use of your Credit Limit.
Personal Identification Number
A Personal Identification Number (PIN) may be obtained by calling
866.955.1347. This PIN may be used by you with your credit card to obtain
a cash advance on your account at any Automated Teller Machine (ATM)
displaying the Mastercard logo or to make purchases at any designated
point of sale (POS) machine. Please keep your PIN confidential and do not
write it on or keep it with your credit card.
Credit Information
You agree that we may re-examine and re-evaluate your creditworthiness
at any time. You authorize us to obtain, from time to time, information from
others, including, but not limited to credit reporting agencies, concerning
you and your credit accounts. You also authorize us to respond to requests
from others and to provide information regarding the status and history of
your account with us. However, we are not obligated to release any such
information to anyone unless we are required by law to do so. You agree
that we have the right to refuse future advances under your line of credit
or reduce your credit limit upon re-examination and re-evaluation of your
creditworthiness, should your creditworthiness change significantly.

Change of Name, Address, Employment, Telephone
You agree to promptly report to us any change in your name, address,
employment, or telephone number.
Balance Transfers
Balance transfers are the transfer of balances from other lenders to your
SchoolsFirst FCU credit card and cannot be applied to any amount you owe
under any other credit agreement or account you have with SchoolsFirst
FCU.
Purchases/Balance Transfers/Cash Advances
You may access your line of credit by making a purchase at a merchant’s
location that accepts the credit card, by requesting a Balance Transfer
orally or electronically, or in writing, or by making a cash advance. We
will not be responsible or liable to you should anyone refuse to accept or
honor your card, or should anyone retain your card and not return it to
you. You may request cash advances under this Agreement by writing a
SchoolsFirst FCU convenience check; by making a written, telephone or
electronic request to us; or by requesting a cash advance at a financial
institution or an ATM that accepts the credit card. You agree to repay all
advances for purchases, balance transfers, and cash advances made to
you or at the request of a joint borrower or authorized user under this
Agreement, and you understand that all purchases, balance transfers, and
cash advances will be subject to the terms of this Agreement. You agree
not to request advances, balance transfers, or make purchases or use your
account in any way that would make the unpaid balance of your account
exceed your credit limit. Cash advances cannot be used to pay any amount
you owe under this Agreement or under any other credit agreement or
account you have with us now or in the future.
Minimum Monthly Payments
You will receive a statement for each monthly billing period in which your
account has an outstanding or credit balance. The minimum monthly
payment on your account is calculated at 2% of the statement balance
or $25, whichever is greater. If your account balance is greater than your
limit or your account is past due, you will be billed for the greater of: the
minimum monthly payment; or the past due amount; or the overlimit
amount. If the account is not paid down to the limit or below, the account
is subject to closure. The minimum monthly payment must be received at
the payment center on or before the payment due date reflected on the
front of your monthly billing statement or the payment may be considered
past due. Payments made in excess of the minimum payment will be
applied first to the balance with the highest interest rate, then successively
to each lower interest rate until the excess payment amount is exhausted.
If you have a credit balance on your account due to merchant credits,
adjustments or overpayments, we will hold and apply this credit balance
against future purchases and cash advances, or refund it at your written
request. An increase or decrease in the Annual Percentage Rate may result
in an increase or decrease in your monthly payment.
Promise to Pay
You agree to pay us, at the payment address stated on the front of your
monthly billing statement, all sums which have been accumulated on your
account by you or others with your permission, together with any finance
charges, late charges and any other service charges computed on your
account as set forth in this Agreement.
Authorizations
Most transactions require approval of funds. Approvals result in placing
a hold against your credit limit. We may limit the number or amount of
approvals or purchases and advances per day or deny transactions when
we detect unusual or suspicious activity, even if you have sufficient credit
available. We are not liable for failing to approve any transaction and we
may, although we are not required to, approve transactions above your
available credit. We are not liable if a merchant, financial institution, or
ATM does not honor your card.

Membership Requirement
You must be a Member in good standing to be eligible for a credit card with
us. We may suspend card privileges, including closing your account, if you
do not maintain your Membership with us in good standing.
Responsibility for Account
You agree to repay us according to the terms of this Agreement for all
purchases, advances, finance charges, fees and collection costs, if any,
arising from the use of this account by you or any other person you permit
to use your card and/or account (even if that person exceeded the amount
for which you gave permission). If you decide to close your account,
please notify us orally or in writing and return all card(s) on the account.
You remain liable for any transactions to the account that we cannot
prevent after you notify us. Any person using the account and/or card is
jointly and severally responsible for all charges on the account.
Lost, Stolen or Unauthorized Use
It is important to continually monitor your monthly statements to identify
any unauthorized transactions. If your card is lost or stolen, or you believe
that someone has accessed or may access money from your card without
your permission, notify us immediately. If you notice unauthorized or
fraudulent activity on your card, notify us immediately. Notify us at the
phone number or address listed on your statement under “How to Reach
Us”. See Your Billing Rights for further information. If your card is used
fraudulently, you agree to assist us in our investigation.
Rewards Cards Terms and Conditions
If you are participating in a Mastercard Rewards Card program, we have
provided you with a separate written disclosure stating additional Terms
and Conditions on your Rewards Card account, and that disclosure is made
part of this Agreement by this reference.
Annual Percentage Rate
SchoolsFirst FCU has a loan program, which features a range of interest
rates for some of its consumer loans. A rate is based on a variety of
factors, including the applicant’s credit rating.
This Agreement establishes the Annual Percentage Rate for Purchases,
Balance Transfers and Cash Advances under this credit card program. We
have provided you with a separate written disclosure stating the Annual
Percentage Rate that will apply to purchases and cash advances on your
account. That disclosure is made part of this Agreement by this reference.
Annual Percentage Rate Variable Rate Credit Card Programs
The Annual Percentage Rate is subject to change monthly on the first
day of the billing cycle. Note that an increase in the Annual Percentage
Rate may result in greater interest charges and a larger monthly payment.
We reserve the right to waive a change in your Annual Percentage
Rate when such a change can be made, but such waiver shall
not be construed as a waiver of our right to change the Annual
Percentage Rate at a future date when entitled to do so.
The rate is determined by adding an index plus a margin. The index
is the highest “Prime Rate” as reported in the “Money Rates” tables of
The Wall Street Journal on the first business day of the month preceding
the start date of each current billing cycle. The tier and margin, and
subsequently the APR you receive, is determined by your creditworthiness.
The maximum Annual Percentage Rate is 18.00%.

Variable Rate Margins

Purchases
Balance Transfers
Cash Advances
Purchases
Balance Transfers
Cash Advances
Purchases
Balance Transfers
Cash Advances
Purchases
Balance Transfers
Cash Advances
Purchases
Balance Transfers
Cash Advances
Purchases
Balance Transfers
Cash Advances

Inspire

Rewards

Tier 1+

Margin
5.25%
5.25%
10.25%

Margin
N/A
N/A
N/A

Tier 1

Margin
7.25%
7.25%
12.25%

Margin
8.25%
8.25%
13.25%

Tier 2

Margin
9.25%
9.25%
14.25%

Margin
10.25%
10.25%
15.25%

Tier 3

Margin
11.25%
11.25%
16.25%

Margin
12.25%
12.25%
17.25%

Tier 4

Margin
17.90%
17.90%
17.90%

Margin
17.90%
17.90%
17.90%

Tier 5

Margin
17.90%
17.90%
17.90%

Margin
17.90%
17.90%
17.90%

Annual Percentage Rate - Penalty Rate
If your credit card account is delinquent 60 days, we will increase your
Annual Percentage Rate on the entire balance to 17.90%. The Penalty
APR will continue to apply unless you make 6 consecutive minimum
payments when due (beginning with the billing cycle immediately following
the application of the Penalty APR) and do not exceed your credit limit
during that time period. If these requirements are met, your credit card
rate will be lowered to reflect your original tier.
Monthly Periodic Rate
The Monthly Periodic Rate is determined by dividing the Annual Percentage
Rate by twelve (12 months in a year).
Calculation of Interest Charges
Interest Charges for each monthly billing cycle will be calculated by
multiplying the Average Adjusted Daily Balance by the Monthly Periodic
Rate. We will calculate your Average Adjusted Daily Balance as follows:
We take the outstanding balance (all amounts you owe) at the start of the
day. Then, in the sequence in which the amounts post to your account, we
add the amount(s) of all debits and subtract the amount(s) of all payments
and credits which post to your account that day. After applying payments
and credits, we subtract any amount of late charge, interest charge, and
any other charges that remain unpaid.
The result is the adjusted daily balance for that day. We add together all
the adjusted daily balances for each day in the billing cycle and divide the
total by the number of days in the billing cycle. The result is the Average
Adjusted Daily Balance for that billing cycle.
Interest Charges are imposed only if you do not pay in full the new balance
for Purchases shown on your Periodic Statement within 25 days of the end
of the statement period. However, interest charges will be assessed and
will accrue on any cash advance (see Purchases/Balance Transfers/
Cash Advances) from the date that such cash advance transaction is
posted to your account to the date the cash advance balance is paid in

full or the Statement Closing Date whichever comes first, even if payment
of the entire New Balance is received by us by the Payment Due Date. In
other words, there is no time period within which credit extended to you
by a cash advance may be repaid without incurring an interest charge.
Late Charge
If the minimum payment due is not received by the Credit Union within
15 days after the payment due date, a late charge of $25 will be imposed.
Additional Fees and Service Charges
We may charge additional service charges for the following:
• Each draft copy that you request: $10
• Additional copies of your monthly billing statement: $2 (per
statement)
• Any payment instrument or method including check, in-person,
ACH or other electronic transaction returned to us for any reason:
$20
• Researching transactions occurring prior to your most recent
account statement: $20 per hour, minimum $20
• Convenience check stop payment: $15
• Balance transfer stop payment fee: $15
• Each request to have a credit card delivered by courier: $20
Change in Terms
This Agreement is the contract which applies to all transactions on your
Account, even though the sales, Cash Advance, credit, or other documents
you sign, agree to, or receive, may contain different terms. We may
amend, modify, add to, or delete from this Agreement any term, condition,
service, or feature at any time, including the amount or calculation of
INTEREST CHARGES. Unless we state otherwise, the change will affect
any unpaid balance outstanding and any subsequent transactions. A
notice will be mailed to your last known address at least forty-five (45)
days prior to the effective date of the change as required by federal or
other law. When a notice of change in terms is required, it may be sent as
late as the effective date of the change when the change has been agreed
to in writing by you. Rates are based on approved credit.
Cancellation of Card
You may cancel your card at any time in writing, enclosing all cards on your
account cut in two. Cancellation of the card will end all charging privileges.
We have the right to revoke your right to use the credit card at any time.
We can do this with or without cause and without giving you notice. We
may list revoked credit cards in a cancellation bulletin or otherwise inform
firms honoring the credit card that the credit card issued to you has been
revoked or cancelled. If we revoke the credit card or it expires, you must
return it to us if we so request. Also, if a firm that accepts the credit card
asks you to surrender an expired or revoked credit card, you must do so.
You may not use the credit card after it has expired or after it has been
revoked. Cancellation or revocation of your credit card will not affect your
obligation to pay any amounts that may be due under this Agreement.
Illegal Activity
Your Mastercard card may not be used for any illegal activity. Internet
gambling may be illegal in the jurisdiction in which you are located,
including the United States and its territories. Your card may only be
used for legal transactions. Display of a payment card logo by an online
merchant does not mean that Internet gambling or other transactions
are legal in the jurisdiction in which you are located. You agree to repay,
according to the terms of this Agreement, transactions you initiate by use
of your card, whether deemed legal or illegal.
Internet Transactions
Your Mastercard is automatically enrolled in the Mastercard 3-D Secure
program. 3-D Secure is designed as an additional layer of security for
online transactions when you use your credit card during a card-notpresent transaction. Your transaction is securely verified in the background
and there is nothing else for you to do.

